HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross and Blue Shield of New Mexico, (A-07-96-01196)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross
and Blue Shield of New Mexico," (A-07-96-01196)
November 8, 1996
Complete Text of Report is available in PDF format
(239 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claims
for Medicare reimbursement by Blue Cross and Blue Shield of New Mexico (New
Mexico) for Fiscal Years 1986 through 1988. We determined that the pension costs
New Mexico claimed for Medicare reimbursement for 1986 through 1988 were materially
correct. Therefore, we made no recommendations.